19-2384

Supreme Court of the United States
In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

DECLARATION
of
CERTIFICATE OF SERVICE

I Sakima Iban Salih El Bey hereby state that a copy of Extra Ordinary Writ has been delivered
Counsel of record that was deposited with the United States postal service for delivery to:
Leslie Rutledge
Catlett Prien Tower Building
323 Center St. #200
Little Rock, Arkansas 72201

By depositing with the US Postal service certified mail.

2021.

Sakima B

